BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Brief of Amici Curiae Securities and
Financial Markets Association, Bank Policy Institute,
American Bankers Association, and U.S. Chamber of
Commerce in Support of Petitioners in 20-222,
Goldman Sachs Group, Inc., et al. v. Arkansas Teacher
Retirement System, et al., was sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Next Day Service and e-mail to the following
parties listed below, this 24th day of September, 2020:
Kannon K. Shanmugam
Paul, Weiss, Rifkind, Wharton & Garrison LLP
2001 K Street, N.W.
Washington, DC 20006
(202) 223-7300
kshanmugam@paulweiss.com
Counsel for Petitioners
Thomas C. Goldstein
Goldstein & Russell, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
tgoldstein@goldsteinrussell.com
Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.bec.kergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Jonathan K. Youngwood
Counsel of Record
Craig S. Waldman
Joshua Polster
Daniel Owsley
Simpson Thacher & Bartlett LLP
425 Lexington Avenue
New York, New York 10017
(212) 455-2000
JYoungwood@stblaw.com

Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 24, 2020.

DonnaJ. Wo

Becker Gallager Lega:P~

hipg, Inc.

8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Putlllc, State of Ohio
~}•,1 Commission Expires
February 14, 2023

